 Department of Health and Human Services
                    OFFICE OF

               INSPECTOR GENERAL





OAKWOOD HOSPITAL AND MEDICAL

  CENTER INCORRECTLY BILLED

MEDICARE INPATIENT CLAIMS WITH 

        KWASHIORKOR



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Stephen Virbitsky

                                                Regional Inspector General


                                                         April 2014

                                                       A-03-13-00032

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY


 Oakwood Hospital and Medical Center incorrectly billed Medicare inpatient claims with
 Kwashiorkor, resulting in overpayments of $48,000 over 3 years.

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

Our objective was to determine whether Oakwood Hospital and Medical Center (the Hospital)
complied with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

The Hospital is a 553-bed not-for-profit teaching and research hospital located in Dearborn,
Michigan. The Hospital is part of Oakwood Healthcare, Inc. The Hospital received $4,088,761
in Medicare payments for inpatient hospital claims that included a diagnosis code for
Kwashiorkor during our audit period (CYs 2010 through 2012). We reviewed $3,924,154 for 98
of these claims.

WHAT WE FOUND

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
98 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 95 of the inpatient claims, removing the
diagnosis code resulted in no change in the DRG payment. However, for the remaining three
inpatient claims, the errors resulted in overpayments of $47,860. Hospital officials attributed
these errors to a misinterpretation of the coding guidelines for malnutrition.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare program $47,860 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

OAKWOOD HOSPITAL AND MEDICAL CENTER COMMENTS
AND OUR RESPONSE

In written comments, the Hospital agreed with our finding. However, the Hospital said that it
had successfully appealed the coding of one claim for which it had received no overpayment. In
addition, the Hospital described the action it had taken or planned to take to refund the
overpayments and strengthen controls over the billing of Kwashiorkor.

The claim addressed in the Hospital’s response was not included in our audit because it was
under a separate review.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .....................................................................................................................1


           Why We Did This Review .............................................................................................1


           Objective ........................................................................................................................1


           Background ....................................................................................................................1

                 The Medicare Program ......................................................................................1

                 Hospital Inpatient Prospective Payment System ...............................................1

                 Oakwood Hospital and Medical Center .............................................................1


           How We Conducted This Review..................................................................................2


FINDING ...................................................................................................................................2


           Federal Requirements and Guidance .............................................................................2


           Incorrect Use of the Diagnosis Code for Kwashiorkor..................................................2


RECOMMENDATIONS ...........................................................................................................3


OAKWOOD HOSPITAL AND MEDICAL CENTER COMMENTS

 AND OFFICE OF INSPECTOR GENERAL RESPONSE.....................................................3


APPENDIXES


           A: Audit Scope and Methodology ................................................................................4


           B: Oakwood Hospital and Medical Center Comments.................................................6





The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)                                              iii
                                           INTRODUCTION


WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether Oakwood Hospital and Medical Center (the Hospital)
complied with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnoses codes established by the International Classification of
Diseases, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high-
severity diagnosis, using diagnosis code 260 may increase the DRG payment.

Oakwood Hospital and Medical Center

The Hospital, which is part of Oakwood Healthcare, Inc., is a 553-bed not-for-profit teaching and
research hospital located in Dearborn, Michigan. The Hospital received $4,088,761 in Medicare
payments for inpatient hospital claims that included diagnosis code 260 for Kwashiorkor during
our audit period (CYs 2010 through 2012) based on CMS’s National Claims History data.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   1
HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,924,154 of Medicare payments to the Hospital for 98 claims that contained
diagnosis code 260 for Kwashiorkor. We did not review managed care claims or claims that
were under separate review. We evaluated compliance with selected Medicare billing
requirements, but did not use medical review to determine whether the services were medically
necessary. This report does not represent an overall assessment of all claims submitted by the
Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
98 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 95 of the inpatient claims, removing the
diagnosis code resulted in no change in the DRG payment. However, for the remaining three
inpatient claims, the errors resulted in overpayments of $47,860. Hospital officials attributed
these errors to a misinterpretation of the coding guidelines for malnutrition.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor on any of the
98 claims we reviewed, resulting in overpayments of $47,860. The coding guidelines establish
diagnosis code 260 for Kwashiorkor. For 95 of the inpatient claims, the hospital included
multiple diagnosis codes, at least one of which had a similar or greater severity level. Therefore,
removing diagnosis code 260 resulted in no change in the DRG payment. However, for the




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   2
remaining three inpatient claims, the errors resulted in overpayments of $47,860. Hospital
officials attributed these errors to a misinterpretation of the coding guidelines for malnutrition.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $47,860 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

             OAKWOOD HOSPITAL AND MEDICAL CENTER COMMENTS

                AND OFFICE OF INSPECTOR GENERAL RESPONSE


In written comments, the Hospital agreed with our finding. However, the Hospital said that it
had successfully appealed the coding of one claim for which it had received no overpayment. In
addition, the Hospital described the action it had taken or planned to take to refund the
overpayments and strengthen controls over the billing of Kwashiorkor. The Hospital’s
comments are included as Appendix B.

The claim addressed in the Hospital’s response was not included in our audit because it was
under a separate review.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)    3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE


Our audit covered $3,924,154 in Medicare payments to the Hospital for 98 inpatient claims that
contained diagnosis code 260 for Kwashiorkor during the period January 1, 2010, through
December 31, 2012. We did not review managed care claims or claims that were under separate
review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements, but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our review from October through December 2013.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed Federal laws, regulations, and guidance;

    •	 extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
       file for the audit period;

    •	 selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •	 removed all managed care claims and any claims that were previously reviewed by a
       Recovery Audit Contractor;

    •	 reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

    •	 repriced each selected claim in order to verify that the original payment by the CMS
       contractor was made correctly;

    •	 requested that the Hospital conduct its own review of the 98 claims to determine whether
       the diagnosis code for Kwashiorkor was used correctly;




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   4
    •	 discussed the incorrectly coded claims with Hospital officials to determine the underlying
       causes of noncompliance with Medicare requirements;

    •	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   5
    APPENDIX B: OAKWOOD HOSPITAL AND MEDICAL CENTER COMMENTS

Oakwood Corporate Services
Business Practices Office

15500 Lundy Parkway
Dearborn, M
48126

313-791-4762

December 3, 2013

Office of Audit Services, Region III
c/o Stephen Virbitsky
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

Re: Report Number: A-03-13-00032

Dear Mr. Virbitsky:

Upon receipt and review of your October 3, 2013 letter, we conducted a coding investigation
regarding the use of diagnosis code 260 (Kwashiorkor) at Oakwood Hospital and Medical Center
(“OHMC”). The findings of our internal review lead us to concur with your report save one
overpayment case that was reviewed with Ms. Lynne Pohler of your office. The net result was
three claims with coding error and overpayment totaling $47,860, and 94 cases with coding error
only (no payment change) and 1 case where coding was challenged by the RAC and successfully
appealed by OI-IMC to the fiscal intermediary. The three claims with overpayment can be
identified in the Excel spreadsheet your office forwarded to us under your control numbers (first
column) 29, 37 and 82. On behalf of OHMC, please accept our apology for the coding errors.

As is our normal course, we have attempted to determine the genesis of these errors and what
corrective action would be appropriate. Unfortunately, our director of coding quality left the
organization some time ago and her electronic files including emails are no longer available for
review. Thus, there is an absence of written communication for analysis contemporary to the
time of these claims. We do know that in October 2011, AHIMA published an article titled
Ensuring Compliant Malnutrition Coding that noted some concerns across the nation’s hospitals
associated with use of diagnosis code 260. As is frequently done when we see articles of interest,
this one was shared promptly with our coders by the coding quality team. This email
communication from Ms. Noelle Percha with attached AHIIVIA article occurred on November
17, 2011 and was directed to the coding staff. These efforts was designed to better ensure current
coding guidance is being followed and, in this case, the use of the Kwashiorkor code appropriate.
In our review subsequent to your October 2013 letter, we did not find indication that there was
past knowledge of a coding issue or problem at OHMC associated with diagnosis code 260 and



The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   6
the distribution of the article was, per Ms. Percha, a routine proactive awareness and education
for the staff.

Looking back to your report, it is noteworthy that only one Medicare case was found in 2012
which would have been post our coding quality team providing additional guidance to the coding
staff. It is our belief that the absence of multiple Kwashiorkor code error in 2012 indicates the
education (provision of the AHIMA article) was effective. In addition, the fact that 95 of the
cases resulted in no payment differential or change in MS-DRG is also instructive. At this time
and since late 2011, we believe any coding confusion that may have existed is resolved and
coders are properly using diagnosis code 260. However, to be more confident that our 2011
proactive steps addressed any coder questions, we are doing a broader check for the period 2010
to present across all payers on the use of diagnosis code 260. If we find error in assignment
resulting in overpayment, we will make corrections and repayment as appropriate. If there is
continued confusion around the code use, we will also provide additional education and conduct
post-education audit to confirm coder understanding. We trust this follow-up will meet with your
approval.

Given we received $47,860 in overpayment from Medicare and our longstanding approach is to
work collaboratively to resolve coding, payment and billing matters, we will make repayment. In
conversation with Ms. Pohler, she indicated that she would provide direction to us following this
communication in order to expedite our payment correction with the Medicare Administrative
Contractor. Please know we will work diligently with your office to close this matter as quickly
as possible.

If you should have any further questions please do not hesitate to call me. Again, please accept
my apology for the errant use of the code.

Regards,

/Jon Horenstein/

Jon Horenstein, JD, MHA
II Business Practices Officer
(313) 791-4762




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00032)   7
